Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




     CODING TRENDS OF
        MEDICARE
      EVALUATION AND
    MANAGEMENT SERVICES




                    Daniel R. Levinson
                    Inspector General

                       May 2012
                     OEI-04-10-00180
EXECUTIVE SUMMARY: CODING TRENDS OF MEDICARE EVALUATION
AND MANAGEMENT SERVICES
OEI-04-10-00180


WHY WE DID THIS STUDY

Between 2001 and 2010, Medicare payments for Part B goods and services increased by
43 percent, from $77 billion to $110 billion. During this same time, Medicare payments
for evaluation and management (E/M) services increased by 48 percent, from
$22.7 billion to $33.5 billion. E/M services have been vulnerable to fraud and abuse. In
2009, two health care entities paid over $10 million to settle allegations that they
fraudulently billed Medicare for E/M services. The Centers for Medicare & Medicaid
Services (CMS) also found that certain types of E/M services had the most improper
payments of all Medicare Part B service types in 2008. This report is the first in a series
of evaluations of E/M services. Subsequent evaluations will determine the
appropriateness of Medicare payments for E/M services and the extent of documentation
vulnerabilities in E/M services.

HOW WE DID THIS STUDY

Using the Part B Analytics Reporting System, we analyzed E/M services provided to
beneficiaries to determine coding trends from 2001 to 2010. Using Part B Medicare
claims data, we analyzed physicians’ E/M claims to identify physicians who consistently
billed higher level (i.e., more complex and more expensive) E/M codes in 2010. We did
not determine whether the E/M claims from these physicians were inappropriate.

WHAT WE FOUND

From 2001 to 2010, physicians increased their billing of higher level E/M codes in all
types of E/M services. Among these physicians, we identified approximately 1,700 who
consistently billed higher level E/M codes in 2010. Although these physicians differed
from others in their billing of E/M codes, they practiced in nearly all States and
represented similar specialties. The physicians who consistently billed higher level E/M
codes also treated beneficiaries of similar ages and with similar diagnoses as those treated
by other physicians.

WHAT WE RECOMMEND

CMS concurred with our recommendations to (1) continue to educate physicians on
proper billing for E/M services and (2) encourage its contractor to review physicians’
billing for E/M services. CMS partially concurred with our third recommendation, to
review physicians who bill higher level E/M codes for appropriate action.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings........................................................................................................8
           From 2001 to 2010, physicians increased their billing of
           higher level E/M codes in all visit types ..........................................8
           In 2010, approximately 1,700 physicians consistently billed
           higher level E/M codes ..................................................................10
Conclusion and Recommendations ............................................................13
           Agency Comments and Office of Inspector General Response.....15
Appendixes ................................................................................................16
           A: Three Key Components Used To Determine the Appropriate
           Complexity Level for an Evaluation and Management Service ....16
           B: Visit Types, Evaluation and Management Codes, Complexity
           Levels, and Medicare Payment Rate in 2010.................................19
           C: Coding Trends for Evaluation and Management Codes in All
           Visit Types from 2001 to 2010 .......................................................21
           D: Percentage of Physicians by State and Evaluation and
           Management Coding Group ...........................................................26
           E: Percentage of Physicians by Specialty and Evaluation and
           Management Coding Group...........................................................28
           F: Percentage of Most Common Diagnoses by Evaluation and
           Management Coding Group in 2010..............................................31
           G: Agency Comments ...................................................................32
Acknowledgments......................................................................................35
                  OBJECTIVES
                  1. To determine coding trends of Medicare evaluation and management
                     (E/M) services from 2001 to 2010.
                  2. To identify and describe physicians who consistently billed higher
                     level E/M codes in 2010.

                  BACKGROUND
                  E/M services are visits with beneficiaries by physicians and nonphysician
                  practitioners, hereinafter referred to as physicians, to assess and manage
                  patients’ health. 1 Between 2001 and 2010, Medicare payments for Part B
                  goods and services increased by 43 percent, from $77 billion to
                  $110 billion. During this same time, Medicare payments for E/M services
                  increased by 48 percent, from $22.7 billion to $33.5 billion.2, 3 The
                  number of E/M services billed also increased by 13 percent, from
                  346 million to 392 million. 4 Additionally, the average Medicare payment
                  amount per E/M service increased by 31 percent, from approximately $65
                  to $85. 5
                  E/M services have been vulnerable to fraud and abuse. In 2009, two
                  health care entities paid over $10 million to settle allegations that they
                  fraudulently billed Medicare for E/M services. One health care entity
                  allegedly billed Medicare for higher levels of E/M services than were
                  actually delivered to patients. 6 In a separate case, a health care entity
                  allegedly submitted false claims to Medicare, which included E/M
                  services as well as unnecessary home visits, tests, and procedures. 7 In
                  2008, the Centers for Medicare & Medicaid Services (CMS) found that




                  1
                    American Medical Association (AMA), Current Procedural Terminology (CPT), 2010.
                  2
                    Office of Inspector General (OIG) analysis of 2001 and 2010 Part B Analytic Reports
                  (PBAR) National Procedure Summary File.
                  3
                    Medicare payment refers to total Medicare-allowed amounts, which are 100 percent of the
                  payment made to a physician by both Medicare and the beneficiary. Medicare pays
                  80 percent of allowed charges, and the beneficiary is responsible for the remaining 20 percent.
                  4
                    OIG analysis of 2001 and 2010 PBAR National Procedure Summary File.
                  5
                    Ibid.
                  6
                    United States ex rel. Wendy Buterakos v. Ascension Health and Genesys Health System,
                  Civil Action No. 06-10550 (E.D. Mich. 2009).
                  7
                    United States and State of Michigan v. Visiting Physicians Association, Civil Action
                  No. 09-1377 (E.D. Mich. 2009).

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                  1
                  certain E/M visit types had the most improper payments of all Medicare
                  Part B services. 8
                  E/M services are grouped into visit types, such as office visits, hospital
                  visits, and consultations. Each visit type reflects the type of service, the
                  place of service, and the patient’s status. For example, there are two types
                  of office visits (new patient and established patient) and two types of
                  hospital visits (initial and subsequent).
                  Most E/M services are billed using CPT codes that define the complexity
                  level of the service. 9 Hereinafter, we refer to CPT codes that correspond
                  to E/M services as “E/M codes.” Each visit type has three to five E/M
                  codes. Higher level codes represent more complex visits. For example,
                  an office visit with a new patient can be billed using one of five E/M
                  codes, from 99201 (the lowest complexity level code) to 99205 (the
                  highest complexity level code). Medicare payment depends on the
                  complexity of the visit. To illustrate, Medicare pays approximately $37
                  for 99201 and $191 for 99205. 10 Overall, payment rates for all E/M
                  services ranged from $19 to $213 in 2010.
                  The level of an E/M service corresponds to the amount of skill, effort,
                  time, responsibility, and medical knowledge required for the physician to
                  deliver the service to the patient. To accurately determine the appropriate
                  complexity level of an E/M service, physicians must use the following
                  three key components: patient history, physical examination, and medical
                  decisionmaking. S ee Appendix A for a description and an example of the
                  three key components used in determining the appropriate complexity
                  level for an E/M service.
                  Medicare Requirements for E/M Services
                  General provisions of the Social Security Act (the Act) govern Medicare
                  reimbursement for all services, including E/M services. Section
                  1862(a)(1)(A) of the Act states that Medicare will cover only services that
                  are considered to be reasonable and necessary for the diagnosis or
                  treatment of illness or to improve functioning. 11



                  8
                    CMS, Improper Medicare Fee-For-Service Payments Report - May 2008 Long Report.
                  Table 9a: Top 20 Service Types with Highest Improper Payments: Carriers and Medicare
                  Administrative Contractors (MAC).
                  9
                    AMA, CPT, 2010. Three visit types do not have complexity levels; these are hospital
                  observation discharge services (99217), standby services (99360), and other E/M services
                  (99499).
                  10
                     OIG analysis of 2010 PBAR National Procedure Summary file.
                  11
                     Social Security Act § 1862(a)(1)(A), 42 U.S.C. § 1395y(a)(1)(A).

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                               2
                  In 1983, CMS adopted the CPT coding system as part of the Healthcare
                  Common Procedure Coding System (HCPCS) and mandated that
                  physicians use this system to bill E/M services. Physicians are responsible
                  for billing the appropriate E/M code to Medicare. It is inappropriate for a
                  physician to bill a higher level, more expensive code when a lower level,
                  less expensive code is warranted. 12
                  Physicians must also accurately and thoroughly document that the E/M
                  service was reasonable and necessary. Section 1833(e) of the Act
                  prohibits payment for a claim that is missing necessary information. 13 For
                  E/M services, physicians must use either the 1995 or 1997 Documentation
                  Guidelines for Evaluation and Management Services to document the
                  medical record with the appropriate clinical information. 14
                  CMS routinely updates its coverage requirements for E/M services. In
                  2006, CMS implemented new E/M codes for visits in rest homes and
                  nursing facilities based on AMA coding changes. 15 In 2010, CMS also
                  discontinued payment of E/M codes for inpatient and outpatient
                  consultations and required that physicians bill for these consultations
                  using one of the remaining E/M codes that accurately represents the place
                  of service and the complexity of the visit. 16, 17, 18




                  12
                     CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 12, § 30.6.1. Accessed
                  at https://www.cms.gov/manuals/downloads/clm104c12.pdf on May 16, 2011. See also
                  Appendix A.
                  13
                     Social Security Act § 1833(e), 42 U.S.C. § 1395l(e).
                  14
                     CMS, Evaluation and Management Services Guide 2010. December 2010. Accessed at
                  https://www.cms.gov/MLNProducts/downloads/eval_mgmt_serv_guide-ICN006764.pdf on
                  June 14, 2011.
                  15
                     CMS, Change Request 4212, Transmittal 775, Home Care and Domiciliary Visits (Dec. 2,
                  2005), which revised CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 12,
                  § 30.6.14. Accessed at http://www.cms.gov/manuals/downloads/clm104c12.pdf on June 10,
                  2011.
                  16
                     Consultations reflect a type of E/M service that involves a specific request for help with a
                  diagnosis or course of treatment on a limited basis.
                  17
                     CMS, National Correct Coding Initiative Policy Manual for Medicare Services. Ch. XI,
                  version 16.3, p. 28, 2011.
                  18
                     CY 2010 Physician Fee Schedule Final Rule. 74 Fed. Reg. 61738, 61767–78 (Nov. 5,
                  2009); CMS, Change Request 6740, Transmittal 1875, Revisions to Consultation Services
                  Payment Policy (Dec. 14, 2009). Accessed at
                  http://www.cms.gov/Transmittals/Downloads/R2282CP.pdf on September 6, 2011.
                  Telehealth consultations are the only type of consultation not eliminated by CMS for
                  Medicare payment. As of January 2010, physicians bill for these consultations using HCPCS
                  codes G0425–G0427 (initial inpatient telehealth consultations) or G0406–G0408 (followup
                  inpatient telehealth consultations).

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                      3
                  Medicare Payments for E/M Services
                  The Omnibus Budget Reconciliation Act of 1989 mandated the
                  establishment of the Medicare physician fee schedule, which sets payment
                  rates for all physician services, including E/M services. 19, 20 See Appendix
                  B for a list of visit types, E/M codes, complexity levels, and Medicare
                  payment rates in 2010.
                  Payment rates for the Medicare physician fee schedule are updated each
                  year using the sustainable growth rate (SGR) system, which is designed to
                  control Medicare spending on physician services. 21 Medicare physician
                  payment rates are adjusted to reflect differences between actual and target
                  spending for certain types of Part B goods and services. 22 If actual
                  spending for these goods and services exceeds target spending, physician
                  payment rates are reduced. If actual spending for these goods and services
                  is lower than target spending, physician payment rates are increased. 23
                  Since the payment reduction in 2002, Congress has overridden SGR fee
                  schedule reductions and has instead either maintained or moderately
                  increased payment rates. 24 As a result of the legislative overrides, the
                  SGR system requires that payment rates be reduced by about 30 percent in
                  2012. 25


                  19
                     Omnibus Budget Reconciliation Act of 1989, P. L. No. 101-239 § 6102. Social Security
                  Act § 1848, 42 U.S.C. 1395w-4. The Medicare physician fee schedule is derived using a
                  resource-based relative value scale, which includes three resource components: (1) total
                  physician work, (2) practice expenses, and (3) malpractice expenses. Each component is
                  measured in terms of relative value units (RVUs). The Medicare physician fee schedule
                  payment rates are based on RVUs, adjusted for geography, and multiplied by a national
                  conversion factor to derive dollar amounts.
                  20
                     Section 1848(a)(1) of the Act established the Medicare physician fee schedule as the basis
                  for Medicare reimbursement for all physician services beginning in January 1992.
                  21
                     Social Security Act § 1848(f), 42 U.S.C. §1395w-4(f).
                  22
                     Annual spending targets are updated each year by applying a growth rate known as the
                  sustainable growth rate (SGR). The SGR formula incorporates four factors: (1) inflation,
                  (2) changes in enrollment in Medicare’s fee-for-service program, (3) the estimated 10-year
                  average annual growth rate of real gross domestic product per capita, and (4) the impact of
                  changes in law or regulation. These factors are multiplied to yield an overall rate of growth.
                  To determine the next year’s spending target, the previous year’s target is increased by the
                  overall rate of growth estimated for the next year.
                  23
                     Congressional Budget Office (CBO), The Sustainable Growth Rate Formula for Setting
                  Medicare’s Physician Payment Rates, September 2006, p. 5. Accessed at
                  http://www.cbo.gov/ftpdocs/75xx/doc7542/09-07-SGR-brief.pdf on June 20, 2011.
                  24
                     CMS, Letter to the Medicare Payment Advisory Commission (MedPAC) regarding the
                  CY 2012 Physician Fee Schedule, March 2011. Accessed at
                  http://www.cms.gov/SustainableGRatesConFact/ on June 20, 2011.
                  25
                     CBO, Medicare’s Payments to Physicians: The Budgetary Impact of Alternative Policies,
                  June 2011. Accessed at http://www.cbo.gov/ftpdocs/122xx/doc12240/SGR_Menu_2011.pdf
                  on August 12, 2011.

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                     4
                  Medicare Claims Processing and Program Safeguards
                  CMS uses several contractors to prevent and reduce Medicare fraud,
                  waste, and abuse. Specifically, CMS contracts with MACs to process and
                  pay Medicare claims. MACs are responsible for conducting medical
                  reviews and developing provider education on identified areas of
                  vulnerability. 26 They also create local coverage determinations,
                  implement electronic edits, or use proactive data analysis to monitor areas
                  of vulnerability. 27
                  Additionally, CMS contracts with Recovery Audit Contractors (RAC) to
                  identify improper payments. RACs are responsible for conducting
                  postpayment reviews to identify and correct improper payments. 28 If an
                  improper payment is identified, RACs notify MACs to take administrative
                  action.
                  CMS contracts with Zone Program Integrity Contractors (ZPIC) to
                  identify and prevent fraud and abuse. 29 ZPICs are responsible for
                  conducting investigations, developing cases of suspected fraud, and
                  referring cases to law enforcement, as appropriate. 30
                  CMS has one contractor that produces comparative billing reports, which
                  show a physician’s billing pattern for various procedures or services and
                  compares that physician’s billing pattern to those of his or her peers. 31
                  Comparative billing reports provide details about physicians’ coding and
                  billing practices to prevent improper payments.




                  26
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch.1, § 1.3.1. Accessed at
                  http://www.cms.gov/manuals/downloads/pim83c01.pdf on May 6, 2011.
                  27
                     Proactive data analysis includes identifying patterns of potential billing errors concerning
                  Medicare coverage and physician coding through data analysis and evaluation of other
                  information.
                  28
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch.1, § 1.3.1. Accessed at
                  http://www.cms.gov/manuals/downloads/pim83c01.pdf on May 6, 2011. Postpayment review
                  includes both automated (medical record not needed) and complex (medical record needed)
                  reviews.
                  29
                     The Medicare Prescription Drug, Improvement and Modernization Act of 2003,
                  P.L. No. 108-173 § 911, required CMS to replace its current claims processing contractors
                  (fiscal intermediaries and carriers) with MACs. Also, CMS is in the process of replacing the
                  legacy benefit integrity contractors, known as Program Safeguard Contractors, with ZPICs.
                  30
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 1, § 1.7.B. Accessed at
                  http://www.cms.gov/manuals/downloads/pim83c01.pdf on May 6, 2011.
                  31
                     Safeguard Services, LLC. Comparative Billing Report Services Overview. Accessed at
                  http://www.safeguard-servicesllc.com/cbr/default.asp on November 1, 2011.

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                  5
                  Related OIG Work
                  In 2006, OIG reported that 75 percent of consultations, one type of E/M
                  service, did not meet Medicare coverage requirements, resulting in
                  $1.1 billion in improper Medicare payments. 32 The report also found that
                  consultations billed at the highest level were miscoded 95 percent of the
                  time. As of 2010, CMS discontinued the payment of E/M consultation
                  codes. 33
                  OIG is conducting a series of evaluations of E/M services provided to
                  Medicare beneficiaries in 2010. OIG plans to issue two others in addition
                  to this report. One will determine the appropriateness of Medicare
                  payments for E/M services. 34 The other will assess the extent of
                  documentation vulnerabilities in E/M services using electronic health
                  record systems. 35

                  METHODOLOGY
                  To analyze coding trends from 2001 to 2010, we used the PBAR National
                  Procedure Summary files. To analyze physician billing patterns, we used
                  the carrier file from the National Claims History (NCH) file in 2010. We
                  limited our analysis to E/M codes that correspond to visit types with three
                  to five levels. 36 We did not determine whether the services billed by
                  physicians who consistently billed higher level E/M codes were
                  inappropriate or fraudulent.
                  Determining the Coding Trends of E/M Services From 2001 to
                  2010
                  Using PBAR data files, we determined the coding trends of E/M services
                  from 2001 to 2010. The PBAR data files include the total number of
                  services and payments for each E/M code. For each year, we calculated
                  the frequency with which physicians billed E/M codes to Medicare.




                  32
                     OIG, Consultations in Medicare: Coding and Reimbursement, OEI-09-02-00030, March
                  2006.
                  33
                     74 Fed. Reg. 61738, 61768 (Nov. 25, 2009).
                  34
                     OEI-04-10-00181, in progress.
                  35
                     OEI-04-10-00182, in progress.
                  36
                     The excluded E/M codes represent 6 percent of Medicare payments for E/M services in
                  2010. These E/M codes are: 12 codes that represent the length of the visit as either more or
                  less than a time threshold (99238–99239, 99291–99292, 99315–99316, 99354–99357, and
                  99406–99407), 2 stand-alone E/M codes (99217 and 99318), unlisted E/M service (99499),
                  and codes with under $100,000 in Medicare payments in 2010.

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                   6
                  Identifying and Describing Physicians Who Consistently Billed
                  Higher Level E/M Codes in 2010
                  Using the 2010 NCH Carrier file, we identified all physicians who
                  performed at least 100 Medicare E/M services in 2010. 37 To identify
                  physicians who consistently billed higher level E/M codes, we first
                  identified physicians whose average E/M code level was in the top
                  1 percent of their specialties. 38, 39 From that subset of physicians, we
                  identified those who billed the two highest codes within a visit type at
                  least 95 percent of the time. Physicians who met both criteria are
                  hereinafter referred to as physicians who consistently billed the two
                  highest level E/M codes. The remaining physicians are referred to as other
                  physicians.
                  Using the 2010 NCH file, we identifed the State and specialty for each
                  physician. 40 We also used this file to analyze the ages and diagnoses of
                  beneficiaries treated by each physician.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  37
                     We used the National Provider Identifier (NPI) field from the NCH Carrier file to
                  determine the number of physicians, and we did not verify whether those NPIs were valid.
                  Claims submitted by physicians who provided fewer than 100 E/M services represented less
                  than 2 percent of Medicare payments and approximately 30 percent of all physicians who
                  provided E/M services.
                  38
                     Physicians who provided E/M services in 2010 represented 66 specialties.
                  39
                     We calculated each physician’s average percentile in his or her specialty across all visit
                  types, weighted by volume, to account for differences in the frequency of billing E/M codes
                  for each specialty.
                  40
                     We selected the physician’s State listed on the claim. This variable includes 50 States and
                  the District of Columbia, as well as Puerto Rico, the Virgin Islands, U.S. possessions, and
                  Guam.

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                     7
                  FINDINGS
                  From 2001 to 2010, physicians increased their billing
                  of higher level E/M codes in all visit types
                  Based on the percentage of services billed for each E/M code within each
                  visit type, physicians increased their billing of higher level (i.e., more
                  complex and more expensive) E/M codes in all 15 visit types from 2001 to
                  2010. 41 Appendix C shows the percentage of services billed for each E/M
                  code in all visit types from 2001 to 2010.
                  To illustrate the shift in physicians’ billing of higher level E/M codes, we
                  provide details on three visit types: (1) established patient office visits,
                  (2) subsequent inpatient hospital care, and (3) emergency department
                  visits. Large proportions of Medicare payments went for these three visit
                  types in 2010, and different types of shifts in billing to higher level codes
                  were made in each type.
                  Established patient office visits
                  This visit type represented the largest amount of Medicare payments for
                  E/M services in 2010. Figure 1 shows the percentage of these services
                  billed for each E/M code from 2001 to 2010, with the percentage
                  difference between 2001 and 2010 above each code’s set of bars. While
                  the middle code (99213) was billed most often during the 10-year period
                  of our review, there was a shift in billing from the three lower level E/M
                  codes to the two higher level codes. Combined, physicians increased their
                  billing of the two highest level E/M codes (99214 and 99215) by
                  17 percent from 2001 to 2010.




                  41
                     From 2001 to 2009, there were 15 visit types for E/M services. In 2010, inpatient and
                  outpatient consultations were no longer permitted by CMS for payment, resulting in 13 visit
                  types. Therefore, the trends for consultations are from 2001 to 2009.

Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                  8
                  Figure 1: Percentage of E/M Codes Billed for Established Patient Office
                  Visits From 2001 to 2010


                                     60%
                                                                                     -8%
                                     50%

                                     40%

                   Proportion of                                                                      15%
                                  30%
                  Services Billed
                                     20%
                                                                     -7%
                                               -2%                                                                           2%
                                     10%

                                      0%
                                                   99211              99212              99213              99214            99215
                                                                                     E/M Code


                                2001        2002     2003     2004        2005    2006    2007       2008    2009     2010

                   Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.



                  Subsequent inpatient hospital care
                  This visit type represented the second-largest amount of Medicare
                  payments for E/M services in 2010. Figure 2 shows the percentage of
                  these services billed for each E/M code from 2001 to 2010, with the
                  percentage difference between 2001 and 2010 above each code’s set of
                  bars. In 10 years, physicians’ billing shifted from lower level to higher
                  level codes. For example, the billing of the lowest level code (99231)
                  decreased 16 percent, while the billing of the two higher level codes
                  (99232 and 99233) increased 6 and 9 percent, respectively.

                  Figure 2: Percentage of E/M Codes Billed for Subsequent Inpatient
                  Hospital Care From 2001 to 2010

                                     70%

                                     60%
                                                                                         6%

                                     50%

                                     40%
                    Proportion of
                   Services Billed
                                     30%
                                                    -16%                                                              9%
                                     20%

                                     10%

                                      0%
                                                           99231                          99232                          99233
                                                                                         E/M Code


                                     2001    2002     2003         2004    2005    2006       2007    2008     2009    2010

                  Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                       9
                  Emergency department visits
                  This visit type represented the fifth-largest amount of Medicare payments
                  for E/M services in 2010. Figure 3 shows the percentage of these services
                  billed for each E/M code from 2001 to 2010, with the percentage
                  difference between 2001 and 2010 above each code’s set of bars. In
                  10 years, physicians’ billing of the highest level code (99285) rose
                  21 percent, increasing from 27 to 48 percent. During the same time,
                  physicians’ billing of all other codes decreased. Physicians billed the
                  lowest level code (99281) less than 3 percent of the time.
                  Figure 3: Percentage of E/M Codes Billed for Emergency Department Visits
                  From 2001 to 2010

                                    60%

                                    50%
                                                                                                                      21%
                                    40%
                                                                                     -11%               -3%
                     Proportion of
                                    30%
                    Services Billed

                                    20%
                                                                     -6%
                                    10%
                                                -2%
                                     0%
                                                99281               99282           99283              99284           99285
                                                                                 E/M Code


                                    2001    2002    2003     2004     2005   2006    2007    2008      2009    2010

                    *Percentages do not sum to zero because of rounding.
                    Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




                  In 2010, approximately 1,700 physicians consistently
                  billed higher level E/M codes
                  In 2010, nearly 370 million E/M services were provided by approximately
                  442,000 physicians nationwide. Of that population, 3,008 had an average
                  E/M code level in the top 1 percent of their specialties. Among these
                  physicians, 1,669 billed the 2 highest level E/M codes within a visit type
                  at least 95 percent of the time. These 1,669 physicians represented less
                  than 1 percent of all physicians who performed E/M services in 2010.
                  These physicians substantially differed from others in their billing of E/M
                  codes.
                  In total, Medicare paid almost $108 million for E/M services performed by
                  physicians who consistently billed the two highest level E/M codes in
                  2010. On average, physicians who consistently billed the two highest
                  level E/M codes did so 98 percent of the time in 2010, compared to others
                  who billed these codes 53 percent of the time.
Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                 10
                        As a result, Medicare paid on average $205 more per beneficiary and
                        $43 more per E/M service to physicians who consistently billed higher
                        level codes. Of these physicians, 916 billed the two highest level codes
                        100 percent of the time, corresponding to $54 million in Medicare
                        payments. Table 1 compares the E/M coding groups.
 Table 1: Number of Physicians, Beneficiaries, E/M Services, and Average Medicare
 Payment per E/M Service and per Beneficiary by E/M Coding Group in 2010
                                                                                              Average        Average
                                           Number of         Number of       Number of       Medicare        Medicare
 E/M Coding Group                          Physicians      Beneficiaries   E/M Services   Payment per     Payment per
                                                                                           E/M Service     Beneficiary

 Physicians Who Consistently
 Billed Higher Level E/M Codes                     1,669         76,132        828,646        $131.24          $426.56

 Other Physicians                                440,321     29,950,855     368,800,457        $88.25          $221.62

   Total                                         441,990     30,026,987     369,629,103             --               --

Source: OIG analysis of 2010 NCH Carrier file.

                        Physicians who consistently billed higher level E/M codes
                        practiced in nearly all States, represented similar specialties,
                        and treated beneficiaries of similar ages and with similar
                        diagnoses as those of other physicians
                        Physicians who consistently billed higher level E/M codes practiced in
                        most (47 of 50) States as well as the District of Columbia, the Virgin
                        Islands, and Puerto Rico. 42, 43 However, some States had a greater
                        percentage of these physicians compared to their percentage of other
                        physicians. For example, California had 17 percent of physicians who
                        consistently billed higher level E/M codes compared to 8 percent of other
                        physicians. See Appendix D for the percentage of physicians in each State
                        by E/M coding group.
                        Overall, physicians who billed for E/M services represented 66 specialties,
                        with most specializing in internal medicine, family practice, and
                        emergency medicine. Physicians who consistently billed the two highest
                        level E/M codes collectively represented 80 percent (53 of 66) of those
                        specialties. Of these physicians, the majority also specialized in internal
                        medicine, family practice, and emergency medicine. Table 2 shows the six
                        specialties with the largest percentage of physicians by E/M coding group
                        in 2010.

                        42
                           Three States (Montana, Nebraska, and Wyoming), U.S. possessions, and Guam did not
                        have physicians who consistently billed higher level codes in 2010.
                        43
                           Less than 1 percent of physicians (114 of 441,990) did not provide information in their
                        claims data about their practice locations.

 Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                      11
                  Table 2: Specialties With the Largest Percentage of Physicians by E/M
                  Coding Group in 2010
                                                                           Physicians Who
                     Specialty                                          Consistently Billed                    Other Physicians
                                                                    Higher Level E/M Codes

                     Internal Medicine                                                    19.8%                              18.1%
                     Family Practice                                                      12.2%                              14.7%
                     Emergency Medicine                                                     9.9%                               7.1%
                     Nurse Practitioner                                                     4.4%                               5.2%
                     Obstetrics and Gynecology                                              4.3%                               1.9%
                     Cardiovascular Disease, Cardiology                                     4.0%                               4.8%
                      Total*                                                              54.6%                              51.8%
                   *The remaining specialties represented 45.4 percent of physicians who consistently billed higher level E/M codes
                   and 48.2 percent of other physicians.
                   Source: OIG analysis of 2010 NCH Carrier file.




                  Further, 28 specialties (42 percent) had less than 1 percent of physicians
                  who consistently billed higher level E/M codes. See Appendix E for the
                  percentage of physicians in each specialty by E/M coding group.
                  Approximately 30 million beneficiaries received E/M services from
                  physicians in 2010. Overall, physicians who consistently billed the two
                  highest level E/M codes and other physicians treated beneficiaries of
                  similar ages. Beneficiaries treated by physicians who consistently billed
                  higher level E/M codes were on average 70 years old. Beneficiaries
                  treated by other physicians were on average 72 years old.
                  Physicians who consistently billed higher level E/M codes had
                  beneficiaries with diagnoses similar to those of beneficiaries treated by
                  other physicians. Appendix F lists the most common diagnoses in 2010
                  and the percentage of services listing the diagnosis for each E/M coding
                  group. Approximately the same percentage of beneficiaries were
                  diagnosed with the three most common diagnoses for each E/M coding
                  group: hypertension (6 percent), benign hypertension (6 percent), and
                  type II diabetes (4 percent).




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                    12
                  CONCLUSION AND RECOMMENDATIONS
                  Between 2001 and 2010, Medicare payments for Part B goods and
                  services increased by 43 percent, from $77 billion to $110 billion. During
                  this same time, Medicare payments for E/M services increased by
                  48 percent, from $22.7 billion to $33.5 billion. Several factors contributed
                  to these overall increases, including increases in the number of services
                  provided and in the average payment rate for E/M services.
                  However, changes in physicians’ billing of E/M codes also contributed to
                  this increase. Based on the percentage of services billed for each E/M
                  code within each visit type, we found that physicians increased their
                  billing of higher level, more complex and expensive E/M codes and
                  reduced their billing of lower level, less complex and expensive E/M
                  codes in all 15 visit types from 2001 to 2010.
                  In addition, approximately 1,700 physicians billed higher level, more
                  complex and expensive E/M codes in 2010 at least 95 percent of the time.
                  Although these physicians differed from others in their billing of E/M
                  codes, they practiced in nearly all States, represented similar specialties,
                  and treated beneficiaries of similar ages and with similar diagnoses.
                  This report is the first in a series of evaluations of E/M services. We did
                  not determine whether physicians who billed higher level E/M codes in
                  2010 billed inappropriately. Subsequent evaluations will determine the
                  appropriateness of Medicare payments for E/M services and the extent of
                  documentation vulnerabilities in E/M services.
                  Therefore, we recommend that CMS:
                  Continue To Educate Physicians on Proper Billing for E/M
                  Services
                  CMS should continue to provide educational outreach on E/M services to
                  physicians. These efforts can focus on how to determine the appropriate
                  E/M code for the service provided and the criteria used in making that
                  determination, particularly for visit types that experienced shifts in billing.
                  Educational outreach to physicians is a longstanding and widespread
                  activity that CMS undertakes to inform physicians about the specific
                  policies, rules, and regulations relevant to the services they provide.
                  Outreach can include letters that describe inappropriate billing practices,
                  face-to-face meetings, telephone conferences, seminars, and workshops.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                  13
                  Encourage Its Contractor To Review Physicians’ Billing for E/M
                  Services
                  CMS should encourage its contractor to review physicians’ billing for E/M
                  services and produce comparative billing reports. Such reports provide a
                  documented analysis of a physician’s billing pattern compared to those of
                  his or her peers. These reports provide helpful insights into physicians’
                  billing patterns to avoid improper Medicare payments. CMS may also
                  find these reports helpful for identifying and monitoring physicians who
                  consistently bill higher level E/M codes.
                  Review Physicians Who Bill Higher Level E/M Codes for
                  Appropriate Action
                  CMS should conduct additional reviews of physicians who consistently
                  bill higher level E/M codes to ensure that their claims are appropriate. If
                  CMS determines that inappropriate claims have been paid, it should take
                  steps to recover those overpayments. To assist CMS, we have separately
                  provided a list of the approximately 1,700 physicians we identified as
                  consistently billing higher level E/M codes in 2010. We will also consider
                  these physicians for further review in our continuing series of evaluations
                  of E/M services.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)             14
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our first and second recommendations and partially
                  concurred with our third recommendation. With regard to our first
                  recommendation, CMS recently updated E/M educational products and is
                  seeking new ways of educating providers on proper billing for E/M
                  services, such as exploring the use of Web-based learning tools.
                  With regard to the second recommendation, CMS will issue a Technical
                  Direction Letter to MACs with a link to our report. CMS will also inform
                  MACs that our findings are informational and shall be considered a source
                  of data as MACs prioritize workloads. CMS is also planning to develop
                  and issue a comparative billing report aimed at 5,000 physicians across the
                  country who have consistently billed for high level E/M codes. The
                  report, which will include the 1,700 physicians identified in our study, is
                  not intended to be punitive or to be an indication of fraud, but is intended
                  to be proactive and will provide information about the physicians’ coding
                  and billing practices. According to CMS, this should help providers
                  identify potential errors in billing practices and make changes to help
                  prevent improper billing and payment in the future.
                  With regard to the third recommendation, CMS stated that it will take
                  appropriate action and forward the names of the 1,700 physicians to
                  MACs. CMS will direct each MAC to focus on the top 10 high billers in
                  its jurisdiction. CMS stated that it and its contractors must weigh the cost
                  and benefit of E/M reviews against reviews of more costly Part B services.
                  We support CMS’s efforts to address these issues and encourage it to
                  continue making progress. For the full text of CMS’s comments, see
                  Appendix G. We did not make any changes to the report based on CMS’s
                  comments.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)              15
                  APPENDIX A
                  Three Key Components Used To Determine the Appropriate
                  Complexity Level for an Evaluation and Management Service
                  As defined by the Current Procedural Terminology (CPT) manual,
                  evaluation and management (E/M) codes, which correspond to three to
                  five complexity levels within a visit type, include seven basic components:
                  patient history, physical examination, medical decisionmaking,
                  counseling, coordination of care, the nature of the patient’s presenting
                  problem (i.e., the reason for the visit), and time. The first three
                  components are key to determining the correct E/M code. The next three
                  are contributory factors to selecting the correct code, meaning that these
                  components are not required for every patient visit. Time is the final
                  component. The physician must use the following three key components
                  to determine the appropriate code: 44
                       1. Extent of patient history—physicians use their clinical judgment and
                          assess the nature of the patient’s presenting problems to determine
                          the depth of the history needed to complete the service. A patient
                          history can be classified into one of four types:
                          •    problem focused (brief history of present illness or problem);
                          •    expanded problem focused (brief history of present illness with
                               problem-pertinent system review);
                          •    detailed (extended history of present illness with pertinent past,
                               family, and social history directly related to the presenting
                               problem; includes review of a limited number of additional
                               systems); and
                          •    comprehensive (extended history of present illness with review of
                               body systems directly related to the patient’s problems; complete
                               past, family, and social history).
                       2. Extent of physical examination—based on clinical judgment and the
                          presenting medical problems, the physician can perform one of four
                          types of examination:



                  44
                     The requirements for each key component are summarized in this Appendix. The full
                  requirements for each key component are available in the 1995 and 1997 Documentation
                  Guidelines for Evaluation and Management Services. Accessed at
                  https://www.cms.gov/MLNProducts/Downloads/1995dg.pdf and
                  https://www.cms.gov/MLNProducts/Downloads/MASTER1.pdf on September 15, 2011.



Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                           16
                          •    problem focused (limited examination of the affected body area or
                               organ system),
                          •    expanded problem focused (limited examination of affected area
                               or systems with other symptomatic or related organ systems),
                          •    detailed (extended examination of affected body area and other
                               related systems), and
                          •    comprehensive (a general multisystem examination or a complete
                               examination of a single organ system).
                       3. Complexity of the physician’s medical decisionmaking—based on
                          factors needed to establish a diagnosis and/or select a management
                          option:
                          •    the number of possible diagnoses or the number of options that
                               must be considered; the amount and/or complexity of medical
                               records, diagnostic tests, and other information that physicians
                               must obtain, review, and analyze; and the risk of significant
                               complications, morbidity, and/or mortality; and
                          •    four types of medical decisionmaking are recognized:
                               straightforward, low complexity, moderate complexity, and high
                               complexity.
                  Table A-1 illustrates the key components used to determine the appropriate
                  E/M code for a new patient office visit. There are five levels of complexity
                  for this office visit. Physicians must document the medical record with the
                  appropriate information to support the E/M code billed to Medicare.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                17
     Table A-1: Key Components Used To Determine the Appropriate E/M Code for a New
     Patient Office Visit

                                                                                                    Key Components
 E/M                                                                                                                             Medical
                                                 Presenting Problem(s)          Patient History         Examination
 Code                                                                                                                    Decisionmaking
                                                                                          Type                Type
                                                                                                                                   Type
                 Self-limited or minor; the physician typically spends 10
 99201                                                                         Problem focused       Problem focused      Straightforward
                      minutes face-to-face with the patient and/or family

               Low to moderate severity; the physician typically spends              Expanded              Expanded
 99202                                                                                                                    Straightforward
                 20 minutes face-to-face with the patient and/or family        problem focused       problem focused

                   Moderate severity; the physician typically spends 30
 99203                                                                                  Detailed              Detailed    Low complexity
                    minutes face-to-face with the patient and/or family

              Moderate to high severity; the physician typically spends                                                        Moderate
 99204                                                                          Comprehensive         Comprehensive
                45 minutes face-to-face with the patient and/or family                                                        complexity

              Moderate to high severity; the physician typically spends
 99205                                                                          Comprehensive         Comprehensive       High complexity
                60 minutes face-to-face with the patient and/or family
Source: The Centers for Medicare & Medicaid Services’ Evaluation & Management Services Guide 2010. Available online at
https://www.cms.gov/MLNProducts/downloads/eval_mgmt_serv_guide-ICN006764.pdf. Accessed on September 14, 2011.




     Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                               18
                                      APPENDIX B
                                      Visit Types, Evaluation and Management Codes, Complexity
                                      Levels, and Medicare Payment Rates in 2010



                                                                                         2010 Average                                         Percentage of Total
                                                                                                                   2010 Total Medicare
 Visit Type                          E/M Code*           Complexity Level            Medicare Payment                                                   Medicare
                                                                                                                             Payments
                                                                                                 Rate                                                  Payments

                                          99201                          Low                        $36.62                  $15,623,525
                                          99202                 Medium-low                          $65.26                 $198,932,791
 New Patient Office Visit                 99203                      Medium                         $96.60                 $865,066,628                         8.8%
                                          99204                Medium-high                        $151.33                $1,266,274,265
                                          99205                         High                      $190.56                  $613,011,381
                                          99211                          Low                        $19.04                 $158,096,550
                                          99212                 Medium-low                          $38.14                 $720,721,085
 Established Patient
                                          99213                      Medium                         $64.80               $6,467,110,957                       48.3%
 Office Visit
                                          99214                Medium-high                          $97.35               $7,580,662,763
                                          99215                         High                      $132.14                $1,307,379,597
                                          99218                          Low                        $63.30                    $7,081,475
 Initial Observation Care                 99219                      Medium                       $105.67                    $39,038,293                        0.4%
                                          99220                         High                      $148.93                    $83,259,376
                                          99221                          Low                        $95.98                 $185,197,152
 Initial Inpatient Hospital
                                          99222                      Medium                       $131.31                  $969,495,783                       10.0%
 Care
                                          99223                         High                      $193.55                $2,203,799,227
                                          99231                          Low                        $38.29                 $494,267,314
 Subsequent Inpatient
                                          99232                      Medium                         $70.01               $3,484,362,095                       18.3%
 Hospital Care
                                          99233                         High                      $100.97                $2,162,757,831
                                          99234                          Low                      $130.76                     $8,893,024
 Observation or Inpatient
                                          99235                      Medium                       $171.43                    $25,926,468                        0.2%
 Hospital Care
                                          99236                         High                      $213.60                    $31,612,362
                                          99241                          Low                         $0.00                              $0
                                          99242                 Medium-low                           $0.00                              $0
 Office/Outpatient
                                          99243                      Medium                         $33.25                           $133                       0.0%
 Consultation**
                                          99244                Medium-high                           $0.00                              $0
                                          99245                         High                         $1.00                              $3
                                          99251                          Low                         $0.00                              $0
                                          99252                 Medium-low                          $34.92                            $70
 Inpatient Consultation**                 99253                      Medium                         $51.95                           $104                       0.0%
                                          99254                Medium-high                           $2.69                           $527
                                          99255                         High                        $41.14                           $123
*E/M codes are evaluation and management codes.
**Effective January 1, 2010, the consultation codes were no longer recognized by the Centers for Medicare & Medicaid Services for Medicare Part B payment. The
average Medicare payment amount and total Medicare payments for consultation codes in 2010 are from claims in our data that were paid improperly.
                                                                                                                                                continued on next page




               Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                        19
                                     Visit Types, Evaluation and Management Codes, Complexity
                                     Levels, and Medicare Payment Rates in 2010 (Continued)



                                                                                         2010 Average
                                                                                                                2010 Total Medicare   Percentage of Total
    Visit Type                       E/M Code            Complexity Level            Medicare Payment
                                                                                                                          Payments    Medicare Payments
                                                                                                 Rate

                                          99281                       Low                          $20.38                $1,635,403
                                          99282                Medium-low                          $39.76               $20,976,556
    Emergency Department
                                          99283                    Medium                          $60.58              $230,221,062                 7.4%
    Visit
                                          99284                Medium-high                        $115.75              $638,227,691
                                          99285                      High                         $172.91            $1,579,304,457
                                          99304                       Low                          $86.38               $24,933,368
    Initial Nursing Facility
                                          99305                    Medium                         $121.58              $100,300,736                 1.0%
    Care
                                          99306                      High                         $155.65              $194,595,076
                                          99307                       Low                          $40.67              $150,954,283
    Subsequent Nursing                    99308                Medium-low                          $62.28              $572,235,515
                                                                                                                                                    4.2%
    Facility Care                         99309                Medium-high                         $81.70              $538,574,010
                                          99310                      High                         $119.48              $132,388,679
                                          99324                       Low                          $54.82                $2,744,951
    New Patient                           99325                Medium-low                          $80.49                $3,363,321
    Domiciliary/Rest Home                 99326                    Medium                         $131.20                $4,760,505                 0.1%
    Visit                                 99327                Medium-high                        $169.94                $5,957,293
                                          99328                      High                         $199.00                $4,700,288
                                          99334                       Low                          $57.32               $22,684,625
    Established Patient                   99335                                                    $87.86               $61,796,402
                                                               Medium-low
    Domiciliary/Rest Home                                                                                                                           0.6%
    Visit                                 99336                Medium-high                        $121.31               $85,457,177
                                          99337                      High                         $172.64               $30,917,995
                                          99341                       Low                          $56.51                $1,392,733
                                          99342                Medium-low                          $82.67                $4,544,302
    New Patient Home Visit                99343                    Medium                         $132.72                $6,150,275                 0.1%
                                          99344                Medium-high                        $172.14               $10,933,245
                                          99345                      High                         $206.24               $14,233,439
                                          99347                       Low                          $56.02               $12,219,650
    Established Patient                   99348                Medium-low                          $84.21               $47,388,999
                                                                                                                                                    0.8%
    Home Visit                            99349                Medium-high                        $121.05              $116,579,054
                                          99350                      High                         $164.83               $78,267,681
      Total*                                                                                                        $33,587,009,674                100%
*
Total does not sum to 100 percent because of rounding.
Source: Office of Inspector General analysis of 2010 Part B Analytic Reports National Procedure Summary file.




                 Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                             20
                                   APPENDIX C
                                   Coding Trends for Evaluation and Management Codes in All
                                   Visit Types from 2001 to 2010

 Table C-1: Established Patient Office Visit
                                                                                            Percentage of Services**                        Difference
                                                                                                                                      Between 2001 and
 E/M Code*          2001        2002       2003       2004       2005        2006       2007       2008       2009        2010                    2010
 99211               6%          6%         6%         5%         5%          5%         4%         4%         4%          4%                     (2%)
 99212              16%         15%        13%        12%        12%         11%        10%        10%         9%          9%                     (7%)
 99213              54%         54%        53%        53%        52%         51%        50%        49%        48%         46%                     (8%)
 99214              21%         22%        24%        26%        28%         30%        31%        33%        34%         36%                      15%
 99215               3%          3%         3%         3%         3%          4%         4%         4%         4%          5%                       2%
*E/M codes are evaluation and management codes.
**Percentages may not sum to 100 because of rounding.
Source: Office of Inspector General (OIG) analysis of Part B Analytics Reports (PBAR) National Procedure Summary files from 2001 to 2010.


 Table C-2: Subsequent Inpatient Hospital Care
                                                                                             Percentage of Services*                        Difference
                                                                                                                                      Between 2001 and
 E/M Code           2001        2002       2003       2004       2005        2006       2007       2008       2009        2010                    2010
 99231              31%         28%        25%        23%        22%         20%        19%        17%        16%         15%                    (16%)
 99232              53%         55%        56%        57%        58%         58%        59%        59%        59%         59%                       6%
 99233              16%         17%        18%        20%        20%         21%        23%        24%        25%         25%                       9%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.


 Table C-3: Initial Inpatient Hospital Care
                                                                                        Percentage of Services*                     Difference Between
 E/M Code            2001       2002       2003       2004      2005       2006      2007 2008 2009 2010                                  2001 and 2010
 99221                7%         6%         6%         5%        5%         5%        5%     5%     5%      9%                                       2%
 99222               39%        38%        37%        36%       36%        35%       33% 32%       32%     36%                                     (3%)
 99223               54%        56%        57%        59%       59%        60%       62% 63%       64%     55%                                       1%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.


  Table C-4: New Patient Office Visit
                                                                                        Percentage of Services*                     Difference Between
  E/M Code           2001      2002         2003      2004      2005       2006      2007 2008    2009    2010                            2001 and 2010
  99201               5%        5%           4%        4%        3%         3%        3%    3%      3%      2%                                     (2%)
  99202              25%       24%          23%       22%       21%        21%       20% 19%       19%     13%                                    (12%)
  99203              37%       38%          39%       40%       41%        42%       42% 43%       43%     37%                                       0%
  99204              23%       24%          25%       26%       26%        26%       26% 27%       27%     35%                                      12%
  99205               9%        9%           9%        9%        9%         9%        8%    8%      8%     13%                                       4%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




             Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                 21
 Table C-5: Emergency Department Visit
                                                                                               Percentage of Services*                       Difference
                                                                                                                                       Between 2001 and
                                                                                                                   +            +
 E/M Code           2001       2002        2003       2004       2005       2006       2007        2008      2009        2010                      2010
 99281               2%         1%          1%         1%         1%         1%         1%          1%         0%          0%                      (2%)
 99282               9%         8%          7%         6%         5%         4%         4%          3%         3%          3%                      (6%)
 99283              31%        30%         29%        28%        27%        25%        24%         22%        21%         20%                     (11%)
 99284              32%        31%         30%        30%        30%        29%        29%         29%        29%         29%                      (3%)
 99285              27%        30%         33%        35%        38%        40%        42%         44%        46%         48%                       21%
*Percentages may not sum to 100 because of rounding.
+
 The percentages for E/M code 99281 in 2009 and 2010 are nonzero values that round to 0 percent.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.



 Table C-6: Subsequent Nursing Facility Care
                                                                                       Percentage of Services*                      Difference Between
 E/M Code           2001      2002         2003      2004      2005       2006      2007 2008     2009 2010                             2006 and 2010**
 99311              40%       36%          33%       30%       28%           --        --    --      --      --                                       --
 99312              48%       49%          51%       52%       54%           --        --    --      --      --                                       --
 99313              12%       14%          17%       18%       18%           --        --    --      --      --                                       --
 99307                 --        --           --        --        --      24%       21% 20%       19%     18%                                      (6%)
 99308                 --        --           --        --        --      45%       45% 45%       45%     45%                                        0%
 99309                 --        --           --        --        --      26%       28% 29%       30%     32%                                        6%
 99310                 --        --           --        --        --       5%        6%     6%     6%      5%                                        0%
*Percentages may not sum to 100 because of rounding.
**As of 2006, the E/M codes 99311–99313 were eliminated and replaced with E/M codes 99307–99310. For this reason, we determined the difference in the
percentage of services between 2006 and 2010 rather than between 2001 and 2010.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.



 Table C-7: Initial Nursing Facility Care
                                                                                           Percentage of Services*                        Difference
                                                                                                                                    Between 2006 and
 E/M Code           2001      2002         2003      2004      2005       2006      2007       2008       2009         2010                   2010**
 99301              18%       16%          15%       14%       13%           --        --         --         --           --                       --
 99302              30%       30%          28%       28%       28%           --        --         --         --           --                       --
 99303              51%       54%          57%       58%       59%           --        --         --         --           --                       --
 99304                 --        --           --        --        --      12%       10%         9%         9%          12%                        0%
 99305                 --        --           --        --        --      34%       32%        31%        32%          35%                        1%
 99306                 --        --           --        --        --      54%       58%        59%        59%          53%                      (1%)
*Percentages may not sum to 100 because of rounding.
**As of 2006, the E/M codes 99301–99303 were eliminated and replaced with E/M codes 99304–99306. For this reason, we determined the difference in the
percentage of services between 2006 and 2010 rather than between 2001 and 2010.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




            Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                    22
  Table C-8: Established Patient Home Visit
                                                                                         Percentage of Services*                  Difference Between
  E/M Code             2001      2002       2003       2004      2005       2006      2007 2008 2009 2010                               2001 and 2010
  99347                23%       20%        19%        17%       16%        14%       12% 11%       11%     10%                                 (13%)
  99348                36%       35%        33%        31%       31%        29%       28% 27%       26%     25%                                 (11%)
  99349                29%       31%        34%        35%       37%        41%       42% 42%       42%     43%                                   14%
  99350                12%       13%        15%        16%       16%        16%       18% 20%       21%     21%                                    9%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.



  Table C-9: Established Patient Domiciliary/Rest Home Visit
                                                                                           Percentage of Services*                       Difference
                                                                                                                                   Between 2006 and
  E/M Code           2001      2002        2003      2004       2005      2006       2007      2008        2009        2010                  2010**
  99331              38%       34%         30%       28%        27%          --         --        --          --          --                      --
  99332              46%       48%         49%       50%        51%          --         --        --          --          --                      --
  99333              15%       18%         20%       22%        22%          --         --        --          --          --                      --
  99334                 --        --          --        --         --     26%        23%       22%         21%         20%                     (6%)
  99335                 --        --          --        --         --     39%        38%       36%         36%         35%                     (4%)
  99336                 --        --          --        --         --     28%        33%       35%         35%         36%                       8%
  99337                 --        --          --        --         --      7%         7%        8%          9%          9%                       2%
 *Percentages may not sum to 100 because of rounding.
 **As of 2006, the E/M codes 99331–99333 were eliminated and replaced with E/M codes 99334–99337. For this reason, we determined the difference in the
 percentage of services between 2006 and 2010 rather than between 2001 and 2010.
 Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.



 Table C-10: Initial Observation Care
                                                                                          Percentage of Services*                       Difference
                                                                                                                                  Between 2001 and
 E/M Code             2001       2002      2003       2004       2005      2006      2007       2008       2009       2010                    2010
 99218                21%        18%       17%        15%        14%       13%       12%        12%        11%        11%                    (10%)
 99219                43%        43%       42%        41%        41%       40%       39%        37%        36%        36%                     (7%)
 99220                36%        39%       41%        44%        45%       47%       49%        51%        53%        54%                      18%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




 Table C-11: Observation or Inpatient Hospital Care
                                                                                          Percentage of Services*                       Difference
                                                                                                                                  Between 2001 and
 E/M Code           2001      2002        2003       2004      2005      2006       2007      2008       2009         2010                    2010
 99234              30%       28%         26%        25%       24%       23%        22%       22%        20%          19%                    (11%)
 99235              42%       42%         42%        42%       42%       42%        41%       41%        42%          41%                     (1%)
 99236              28%       30%         31%        32%       34%       35%        37%       37%        38%          40%                      12%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




            Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                    23
  Table C-12: New Patient Home Visit
                                                                                            Percentage of Services*                        Difference
                                                                                                                                     Between 2001 and
  E/M Code          2001       2002         2003      2004       2005      2006       2007      2008        2009         2010                    2010
  99341             24%        21%          18%       16%        14%       13%        12%       11%         10%          10%                    (14%)
  99342             28%        27%          26%       26%        24%       23%        23%       22%         22%          21%                     (7%)
  99343             17%        18%          19%       19%        19%       19%        20%       18%         18%          18%                       1%
  99344             14%        17%          19%       19%        21%       21%        21%       21%         23%          25%                      11%
  99345             16%        17%          18%       20%        21%       23%        25%       27%         27%          27%                      11%
*Percentages may not sum to 100 because of rounding.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




  Table C-13: New Patient Domiciliary/Rest Home Visit
                                                                                            Percentage of Services*                        Difference
                                                                                                                                     Between 2006 and
  E/M Code           2001       2002        2003      2004       2005      2006       2007      2008        2009         2010                  2010**
  99321              36%        34%         32%       30%        29%          --         --        --          --           --                      --
  99322              37%        36%         37%       36%        37%          --         --        --          --           --                      --
  99323              27%        30%         32%       34%        34%          --         --        --          --           --                      --
  99324                 --         --          --        --         --     29%        29%       28%         28%          27%                     (2%)
  99325                 --         --          --        --         --     28%        25%       25%         24%          22%                     (6%)
  99326                 --         --          --        --         --     20%        19%       18%         19%          19%                     (1%)
  99327                 --         --          --        --         --     14%        17%       17%         17%          19%                       5%
  99328                 --         --          --        --         --     10%        11%       12%         13%          13%                       3%
*Percentages may not sum to 100 because of rounding.
**As of 2006, the E/M codes 99321–99323 were eliminated and replaced with E/M codes 99324–99328. For this reason, we determined the difference in the
percentage of services between 2006 and 2010 rather than between 2001 and 2010.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




 Table C-14: Inpatient Consultation
                                                                                        Percentage of Services*                     Difference Between
 E/M Code           2001       2002      2003        2004      2005        2006       2007 2008    2009 2010                            2001 and 2009**
 99251               4%         4%        3%          3%        3%          2%         2%    2%      2%      --                                    (2%)
 99252              10%        10%        9%          9%        8%          8%         7%    7%      7%      --                                    (3%)
 99253              26%        26%       26%         25%       25%         25%        25% 24%       25%      --                                    (1%)
 99254              39%        40%       41%         42%       43%         43%        44% 44%       45%      --                                      6%
 99255              20%        20%       21%         21%       21%         21%        22% 22%       22%      --                                      2%
*Percentages may not sum to 100 because of rounding.
**As of January 2010, the Centers for Medicare & Medicaid Services (CMS) no longer recognizes for Medicare payment the E/M codes for consultations. For this
reason, we determined the difference in the percentage of services between 2001 and 2009 rather than between 2001 and 2010. However, there were some
inappropriately paid claims, which we do not include in this table.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




             Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                      24
 Table C-15: Office/Outpatient Consultation
                                                                                           Percentage of Services*                       Difference
                                                                                                                                   Between 2001 and
 E/M Code           2001       2002      2003        2004       2005       2006      2007        2008       2009       2010                  2009**
 99241               5%         4%        3%          3%         3%         3%        2%          2%         2%           --                   (3%)
 99242              14%        13%       13%         12%        11%        11%       10%          9%         9%           --                   (5%)
 99243              33%        33%       33%         33%        33%        33%       33%         33%        33%           --                     0%
 99244              35%        36%       36%         37%        38%        39%       40%         41%        42%           --                     7%
 99245              14%        14%       14%         14%        14%        15%       15%         15%        15%           --                     1%
*Percentages may not sum to 100 because of rounding.
**As of January 2010, CMS no longer recognizes for Medicare payment the E/M codes for consultations. For this reason, we determined the difference in the
percentage of services between 2001 and 2009 rather than between 2001 and 2010. However, there were some inappropriately paid claims, which we do not include
in this table.
Source: OIG analysis of PBAR National Procedure Summary files from 2001 to 2010.




            Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                    25
                  APPENDIX D

                  Percentage of Physicians by State and Evaluation and
                  Management Coding Group

                                                 Percentage of Physicians
                                                                              Percentage of Other
                      State                       Who Consistently Billed
                                                                                      Physicians
                                                  Higher Level E/M Codes*
                      California                                      17.1%                   8.2%
                      New York                                        11.3%                   7.3%
                      Florida                                         9.6%                    6.3%
                      Texas                                           6.7%                    6.2%
                      Arizona                                         4.3%                    1.9%
                      Michigan                                        3.8%                    3.7%
                      Illinois                                        3.5%                    4.3%
                      Maryland                                        3.3%                    2.1%
                      New Jersey                                      3.2%                    3.3%
                      Pennsylvania                                    3.2%                    5.0%
                      Ohio                                            2.6%                    4.1%
                      Georgia                                         2.4%                    2.6%
                      Massachusetts                                   2.3%                    3.2%
                      North Carolina                                  2.2%                    3.4%
                      Tennessee                                       1.9%                    2.3%
                      Virginia                                        1.7%                    2.5%
                      Washington                                      1,6%                    2.2%
                      Colorado                                        1.5%                    1.3%
                      Louisiana                                       1.5%                    1.4%
                      Alabama                                         1.2%                    1.4%
                      Minnesota                                       1.1%                    2.0%
                      Wisconsin                                       1.1%                    2.2%
                      Nevada                                          1.0%                    0.6%
                      New Mexico                                      1.0%                    0.6%
                      Puerto Rico                                     1.0%                    0.6%
                      West Virginia                                   1.0%                    0.7%
                      Mississippi                                     0.8%                    0.9%
                      Oklahoma                                        0.7%                    1.2%
                      Oregon                                          0.7%                    1.1%
                      South Carolina                                  0.7%                    1.4%
                      Kentucky                                        0.7%                    1.5%
                    *E/M codes are evaluation and management codes.           continued on next page




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                         26
                  Percentage of Physicians by State and Evaluation and
                  Management Coding Group (Continued)


                                                    Percentage of Physicians
                                                                                       Percentage of Other
                      State                          Who Consistently Billed
                                                                                               Physicians
                                                     Higher Level E/M Codes
                      Indiana                                                 0.6%                        2.2%
                      Arkansas                                                0.5%                        0.8%
                      Missouri                                                0.5%                        2.0%
                      Connecticut                                             0.4%                        1.5%
                      District of Columbia                                    0.4%                        0.3%
                      Kansas                                                  0.4%                        1.0%
                      Utah                                                    0.4%                        0.6%
                      Delaware                                                0.4%                        0.4%
                      Hawaii                                                  0.3%                        0.3%
                      Iowa                                                    0.2%                        1.1%
                      Maine                                                   0.2%                        0.6%
                      New Hampshire                                           0.2%                        0.6%
                      Rhode Island                                            0.2%                        0.4%
                      South Dakota                                            0.1%                        0.3%
                      Virgin Islands                                          0.1%                        0.0%
                      Unknown                                                 0.1%                        0.0%
                      Alaska                                                  0.1%                        0.2%
                      Idaho                                                   0.1%                        0.5%
                      North Dakota                                            0.1%                        0.3%
                      Vermont                                                 0.1%                        0.3%
                      Montana                                                     --                      0.4%
                      Nebraska                                                    --                      0.6%
                      Wyoming                                                     --                      0.2%
                      U.S. Possessions                                            --                      0.0%
                      Guam                                                        --                      0.0%
                      Missing                                                     --                      0.0%
                       Total                                                 100%                        100%
                    Source: Office of Inspector General analysis of 2010 National Claims History Carrier File.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                   27
                  APPENDIX E
                  Percentage of Physicians by Specialty and Evaluation and
                  Management Coding Group

                                                                          Physicians Who
                Specialty                                        Consistently Billed Higher     Other Physicians
                                                                         Level E/M Codes*
                Internal Medicine                                                    19.8%                   18.1%

                Family Practice                                                      12.2%                   14.7%

                Emergency Medicine                                                    9.9%                    7.1%

                Nurse Practitioner                                                    4.4%                    5.2%

                Obstetrics and Gynecology                                             4.3%                    1.9%

                Cardiovascular Disease, Cardiology                                    4.0%                    4.7%

                Orthopedic Surgery                                                    3.9%                    4.1%

                Psychiatry                                                            3.8%                    1.8%

                General Surgery                                                       3.2%                    3.5%

                Ophthalmology                                                         3.2%                    2.3%

                Anesthesiology                                                        2.6%                    0.6%

                Physician Assistant                                                   2.3%                    4.0%

                Optometry                                                             2.2%                    1.8%

                Otolaryngology                                                        2.2%                    1.7%

                Neurology                                                             2.0%                    2.3%

                Gastroenterology                                                      1.9%                    2.4%

                General Practice                                                      1.4%                    1.4%

                Pulmonary Disease                                                     1.3%                    1.8%

                Physical Medicine and Rehabilitation                                  1.2%                    1.4%

                Urology                                                               1.2%                    1.9%

                Endocrinology                                                         1.1%                    0.9%

                Nephrology                                                            1.1%                    1.5%

                Podiatry                                                              1.1%                    2.9%
               *E/M codes are evaluation and management codes.                                continued on next page




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                         28
                  Percentage of Physicians by Specialty and Evaluation and
                  Management Coding Group (Continued)
                                                                    Physicians Who
                Specialty                                 Consistently Billed Higher-    Other Physicians
                                                                   Level E/M Codes

                Dermatology                                                      1.0%                   2.1%

                Neurosurgery                                                     1.0%                   0.8%

                Hematology-Oncology                                              0.8%                   1.5%

                Infectious Disease                                               0.8%                   0.9%

                Interventional Pain Management                                   0.8%                   0.4%

                Rheumatology                                                     0.8%                   0.8%

                Radiation Oncology                                               0.6%                   0.6%

                Medical Oncology                                                 0.5%                   0.5%

                Allergy Immunology                                               0.4%                   0.5%

                Vascular Surgery                                                 0.4%                   0.5%

                Geriatric Medicine                                               0.3%                   0.3%

                Hand Surgery                                                     0.3%                   0.2%

                Plastic and Reconstructive Surgery                               0.3%                   0.5%

                Critical Care, Intensivists                                      0.2%                   0.3%

                Osteopathic Manipulative Treatment                               0.2%                   0.1%

                Pain Management                                                  0.2%                   0.1%

                Surgical Oncology                                                0.2%                   0.1%

                Thoracic Surgery                                                 0.2%                   0.3%

                Cardiac Surgery                                                  0.1%                   0.2%

                Certified Registered Nurse Anesthetist                           0.1%                   0.0%

                Clinic or Group Practice                                         0.1%                   0.0%

                Colorectal Surgery, Proctology                                   0.1%                   0.2%

                Gynecological Oncology                                           0.1%                   0.2%

                Hematology                                                       0.1%                   0.1%
                                                                                        continued on next page




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                   29
                  Percentage of Physicians by Specialty and Evaluation and
                  Management Coding Group (Continued)

                                                                               Physicians Who
                Specialty                                             Consistently Billed Higher           Other Physicians
                                                                              Level E/M Codes

                Maxillofacial Surgery                                                           0.1%                  0.0%

                Neuropsychiatry                                                                 0.1%                  0.0%

                Nuclear Medicine                                                                0.1%                  0.0%

                Oral Surgery, Dentist Only                                                      0.1%                  0.0%

                Peripheral Vascular Disease                                                     0.1%                  0.0%

                Preventative Medicine                                                           0.1%                  0.0%

                Addiction Medicine                                                                   --               0.0%

                Certified Clinical Nurse Specialist                                                  --               0.1%

                Diagnostic Radiology                                                                 --               0.1%

                Interventional Radiology                                                             --               0.0%

                Pediatric Medicine                                                                   --               0.2%

                Pathology                                                                            --               0.0%

                Undefined Type                                                                       --               0.0%

                No Specialty Listed                                                                  --               0.0%

                Certified Nurse Midwife                                                              --               0.0%

                Audiologist                                                                          --               0.0%

                Radiation Therapy Center                                                             --               0.0%

                Licensed Clinical Social Worker                                                      --               0.0%

                Public Health or Welfare Agency                                                      --               0.0%

                  Total                                                                      100.0%                 100.0%
              Source: Office of Inspector General analysis of 2010 National Claims History Carrier File.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                30
                         APPENDIX F

                         Percentage of Most Common Diagnoses by Evaluation and
                         Management Coding Group in 2010


                                                         International             Beneficiaries Treated by
                                                      Classification of                                       Beneficiaries Treated
Diagnosis                                                                     Physicians Who Billed Higher
                                                       Diseases-Ninth                                          by Other Physicians
                                                                                               Level Codes
                                                              Revision
                                                      Diagnosis Code

Hypertension (no other symptom)                                     4019                              6.0%                    5.8%

Benign Hypertension                                                 4011                              5.9%                    6.3%

Type II Diabetes                                                   25000                              4.4%                    4.4%

Back Problem (lumbago)                                              7242                              2.2%                    1.1%

High Cholesterol (hyperlipidemia)                                   2724                              1.7%                    1.6%

Heart Disease (coronary atherosclerosis)                           41401                              1.2%                    1.8%

Abnormal Heart Rhythm (atrial fibrillation)                        42731                              1.1%                    2.6%

Source: Office of Inspector General analysis of 2010 National Claims History Carrier File.




 Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                             31
                  APPENDIXG

                  Agency Comments




             (~              DEPAIl1MtNT OF HEALTH & lHJMAN SERVlCES_ _ _ _ _ _ _C_"""'''' to< M'l>d1Canl1l M'l>di<:llld Sr:Mo\l<

                                                                                                       Ad",ilU'strafor
                                                                                                       WSshir'qltm. DC :>0201




                     l),\TE:            MAR 282012
                     TO: 	              Daniel R. Levinson 

                                        In~pect(Vr   04;llent[ 


                     FROM; 	            l\·1arilyn TaYCIlIlCf 

                                                                   /S/
                                        Actillt< Admini:;trlllor 


                     SUBJECT: 	 Office of In$pt:cim General (0TG) Drofi Re]Xlrt Coding Trends of Medicare
                                        Evaluation and Mamagemelll Services, OEl-04-1 0-00 l gO


                     Thank    Y01J   for tbe oppoltlmlty to review and comment onlile, OIG Draft Report enLitled, "('oding
                     Trends of Medicare Evaluation and Management"- (01-·04·10-00180). The Cemers for
                     Medicare & Medic::aid Services (eMS) appn:c.:i~s the time lind reti4,}urces OlG lJ~d to review
                     this iss,uc. O[G applied tile use offlile l'alt B }\naiytics Re]Xllting System to analyze Evaluation
                     Illid Manag!:men\ (FI'vl) services provided ttl hcn;;ticiaries to dctennine coding trends from 200 1
                     to 20] O. OIO's audit also focused on l'w B ~1edic:are claims dam to d.eretmiile physicians' El.!\·l
                     claim paltt."T1lS In i.dentify phY$icians who consistentiy billed at higher levels offjM codes in
                     2010.

                     'I he OI(rs study reports a growing trend of billing at the higher levels for F./M codes in all types
                     Hf I'Jr..,1 scrvi(;4;s, DIG tlrsl n::commends th.at eMS corulnuc to educate physkians on proper
                      bi 11 ins ttl! F)M services. The second recommendation in thl:! report lldvises eMS ttl t;llcour'.lge
                     contractors to rtview physicians' billing for Ei~l services. The last recommendation requests
                     e MS to review ph)'si~i:a.n~ who cNts 15t~ntly bill higher level H·M CI.-wies for I!ppmpti<lle HetiI,m.
                      eMS has reviewed the /'\:.'JXll'1 and our rcs']Xluses to tbe 010 recommendaliot,s are below.

                     OlG R.eeolnttHfl1d'fltion 1

                      'outinue To Educate PltysJcia:ns on I'roper BiUin2 for EJM         Sen'i~es


                     0 ..18 should continue to provide educatio!1.al outreach on ElM services to physicians. These
                     em.l!U can IOclls on how to determine 1he appropriaw FiM 1;;odc for the service provided and the
                     criteria used in making that determination, partic.ularly tbr vi sit types that experienced shins in       ~.
                     billing,

                     Edu.cational outreach to physicians is II longstanding and widespread activtty eMS uttdertakcs to
                     inform physicians on the specitk policies, rules, and rCl;ulaliotl!i relevUlit to c'hcservices they
                     pwvidc_ OutrcllCn can ["elude letters that describe inappropriate bHling p.racttces, faee.to.face
                     meetings. telephone oonferer,\ces, seminars, u:lcl wnrks.hops.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)                                                  32
         Agency Comments (Continued)




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)   33
                  Agency Comments (Continued)




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)   34
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Dwayne Grant, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta regional
                  office, and Jaime Durley, Deputy Regional Inspector General.
                  Michelle Verges served as the lead analyst. Other principal Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  contributed to the report include Rachel Daiber; other central office staff
                  who contributed include Kevin Farber, Althea Hosein, and Sandy Khoury.




Coding Trends of Medicare Evaluation and Management Services (OEI-04-10-00180)               35
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
